May 27, 2010

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Contract Payment Terms (Report Number CA-AR-10-004)

This report presents the results of our audit of contract payment terms (Project Number
09YG003CA003). Our objective was to determine if the U.S. Postal Service received
consideration when contract payment terms were less than net 30 days. The report was
self-initiated to address financial risks associated with the contracting process.

The Prompt Payment Act (PPA) requires the Postal Service and federal agencies to
make payment on a proper invoice no later than 30 days after receipt of the invoice. The
PPA does not prohibit entering into contracts with payment terms of less than 30 days.
However, it strongly discourages this practice unless the supplier provides
consideration, such as an early payment discount in return for a shortened payment
period. When the Postal Service pays invoices earlier than 30 days after receipt, it
incurs an opportunity cost1 associated with the amount of the payment for the days paid
early. Therefore, it is important that the Postal Service ensure that the supplier provides
equitable consideration before agreeing to payment terms of less than net 30 days. See
Appendix A for additional information about this audit.

Conclusion

In some cases, the Postal Service agreed to contract payment terms less than the
standard of net 30 days and did not receive an early payment discount2 or some other
type of consideration in return. Consequently, the Postal Service incurred an opportunity
cost of $19.3 million3.




1
  The opportunity cost represents the assumption that the Postal Service could use the temporarily available cash to
pay down long-term debt and decrease the amount of its interest expense.
2
  An example of an early payment discount would be payment terms of "2/10, net 30", which indicates that a
2 percent discount can be taken by the Postal Service only if the invoice is paid within 10 days and that full payment
is expected in 30 days.
3
  After the issuance of the draft audit report, we discussed the classification of monetary impact with Postal Service
personnel and changed the classification of monetary impact from unrecoverable revenue loss to unrecoverable
unsupported questioned costs to more accurately reflect that the cash held for a longer period of time could be used
to pay down long-term debt.
Contract Payment Terms                                                                             CA-AR-10-004



Contracts with Payment Terms of Less Than Net 30 Days

The Postal Service did not receive consideration for 10 of the 14 contracts we
reviewed4. For those 10 contracts with contract values totaling nearly $9 billion, the
contract files did not include supporting documentation showing the Postal Service
received something in exchange for payment terms of less than net 30 days. In addition,
Postal Service personnel did not calculate the costs associated with the shorter
payment terms.

Consequently, because Postal Service officials agreed to payment terms of less than
net 30 days without receiving an early payment discount or some other type of
consideration in return, the Postal Service incurred an opportunity cost of $19.3 million.
See Appendix B for our detailed analysis of this topic.

Postal Service officials gave the following reasons for agreeing to payment terms of less
than net 30 days:

       They did not negotiate specific line items on the contracts — such as payment
        terms — separately.

       Payment terms were acceptable given the overall service and value of the
        contracts.

       Shorter payment terms were industry standards.

       Shorter payment terms were necessary to comply with Electronic Data
        Interchange (EDI) billing requirements.

Because the Postal Service did not calculate the cost associated with shorter payment
terms, it was not possible to determine if the overall service and value of the contracts
compensated for the shorter payment terms. In addition, the Postal Service did not
provide documentation to support that shorter payment terms were industry standards.
Further, EDI billing automates the bill payment processes but it should not dictate the
payment terms of a contract. One of the main benefits of EDI billing is that it facilitates a
more precise on-time payment structure. This ensures that payments are made as close
as possible to the payment due date, allowing for payment terms of net 30 days.

We recommend the vice president, Supply Management:

1. Revise the Postal Service’s Supplying Principles and Practices, Section 5-12.2,
   Payment Time Frame, and other sections as necessary, with language stating that
   when contracting officers negotiate payment terms other than net 30 days they


4
 The 14 contracts had payment terms of less than net 30 days and contract values totaling approximately
$9.3 billion.




                                                        2
Contract Payment Terms                                                       CA-AR-10-004



   include the business rationale and associated documentation for the payment terms
   in the contract file.

Management’s Comments

Management agreed with the recommendation. However, management disagreed with
the finding and monetary impact. Management stated the report focused only on costs
associated with shorter payment terms when the Postal Service received value in other
ways during negotiations for the contracts reviewed. See Appendix E for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation, as management’s corrective action
should resolve the issue identified in the report.

However, management disagreed with our finding and monetary impact of $12,189,632.
We believe the monetary impact represents an opportunity cost to the Postal Service.
Management’s response indicated that the Postal Service received value in other ways
during contract negotiations. However, there was no evidence in the contract files to
support the assertion that projected costs associated with payment terms of less than
the standard of net 30 days were part of the negotiations and that the Postal Service
received something of value in exchange for agreeing to shorter payment terms.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. The recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments




                                            3
Contract Payment Terms       CA-AR-10-004



cc: Joseph Corbett
    Susan A. Witt
    Sally K. Haring




                         4
Contract Payment Terms                                                                               CA-AR-10-004



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The PPA requires the Postal Service and federal agencies to make payment on a
proper invoice no later than 30 days after receipt of the invoice. The PPA does not
prohibit the Postal Service and federal agencies from entering into contracts with
payment terms of less than 30 days. However, it strongly discourages this practice
unless the supplier provides consideration, such as an early payment discount in return
for a shortened payment period. In addition, the PPA stipulates that even if the supplier
offers an early payment discount or some other type of consideration, the Postal
Service or federal agency should carefully weigh the economic benefit before agreeing
to the early payment terms.

Also, on October 8, 2009, the Center for Advanced Procurement and Supply (CAPS)
Research released a survey they conducted on payment terms. Specifically, they asked
a total of 150 companies from 15 different industry sectors what their typical payment
terms were. They also asked if companies receive a discount for paying early. Sixty-six
companies responded to the survey and 65 of the companies (or 98.5 percent) said
their typical payment terms were net 30 days or more. In addition, 59 of the companies
(or 89.4 percent) said they receive discounts for paying early.

As of March 10, 2010, the Postal Service’s Enterprise Data Warehouse (EDW) showed
17,170 open contracts. Of these contracts, 1,930 contracts (or 11.2 percent) had
payment terms of less than net 30 days and did not include an early payment discount
in return for the shortened payment period.5 Only 234 of the 17,170 open contracts (or
1.4 percent) had payment terms offering an early payment discount.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if the Postal Service received consideration when
contract payment terms were less than net 30 days.

To accomplish our objective we reviewed:

       The requirements of the PPA and applicable sections of the Code of Federal
        Regulations.

       The Postal Service’s Management Instruction Number FM-610-2000-2,
        Compliance with the Prompt Payment Act, and the Postal Service’s Supplying
        Principles and Practices.


5
  Although the Postal Service did not receive an early payment discount, it may have received some other type of
consideration. For example, the Postal Service could have negotiated a lower contract price in exchange for reducing
the payment terms.




                                                         5
Contract Payment Terms                                                                             CA-AR-10-004



       The results of a survey CAPS Research conducted on standard payment terms.

We used the Postal Service’s EDW and identified 3,597 contracts6 with payment terms
of less than net 30 days that did not include an early payment discount in return for the
shortened payment period. The Postal Service either awarded these contracts with
payment terms of less than net 30 days or agreed to contract modifications, which
changed the payment terms to less than net 30 days. The payment terms for these
contracts included terms of next day, net 5 days, net 7 days, net 10 days, net 14 days,
net 15 days, net 20 days, and net 25 days. Of the 3,597 contracts, we selected all
14 contracts with a spend amount of $10 million or more for review.

For the 14 contracts, we obtained contract information from the Contract Authoring
Management System (CAMS) and distributed a questionnaire to contracting officers.
The questionnaire assisted us in determining whether the Postal Service received
consideration in exchange for agreeing to payment terms of less than net 30 days.

We conducted this performance audit from December 2009 through May 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on April 6, 2010, and included
their comments where appropriate. We relied on data obtained from the Postal
Service’s EDW and CAMS. We did not test the validity of controls over the systems.
However, we obtained documentation that validated the data we relied on.

PRIOR AUDIT COVERAGE

The OIG issued Universal Computing Connectivity Contract (Report Number CA-AR-06-
003) on September 1, 2006. The audit determined the Postal Service incurred
increased costs of $67,360 because Postal Service personnel agreed to a contract
modification, which changed the payment terms of the contract from net 30 days to net
15 days. The OIG made no recommendations because the Postal Service partially
terminated the contract prior to issuance of the report.




6
  This represents open contracts as of December 15, 2009, and contracts closed after October 1, 2007. We excluded
the Postal Service’s Universal Computing Connectivity contract with Lockheed Martin because we previously
reviewed the contract payment terms.




                                                        6
     Contract Payment Terms                                                                                 CA-AR-10-004



                                      APPENDIX B: DETAILED ANALYSIS

     Contracts with Payment Terms of Less Than Net 30 Days

     The PPA encourages the Postal Service to weigh the economic benefit before agreeing
     to payment terms of less than net 30 days. In addition, CAPS Research indicates that
     payment terms in the private sector are generally net 30 days or longer.

     The table below displays the 14 contracts we reviewed. The Postal Service did not
     receive consideration in exchange for agreeing to payment terms of less than net 30
     days for 10 of these contracts. See Appendix C for the opportunity cost calculations for
     the 10 contracts.

                                                                                                             Consideration
Supplier Name             Contract Number               Contract Value            Payment Terms
                                                                                                               Received
American Bank                                                                    Contract Modified
                         2BRPSR-08-B-0015                    $54,100,000                                            Yes7
Note                                                                              – Net 15 Days
                                                                                 Contract Modified
MDI Government                                                                    – Net 10 Days
                        3CMTEQ-06-B-0004                      17,405,567                                             Yes
Services                                                                         Modified to Net 20
                                                                                       Days
MDI Commercial                                                                   Contract Modified
                        3CMTEQ-06-B-0002                      14,799,776                                             Yes
Services Inc.                                                                     – Net 20 Days
Manpower                                                                         Contract Modified
                          102592-02-B-1200 177,587,751                                                               n/a8
International Inc.                                                                 – Net 5 Days
Federal Express                                                                  Contract Awarded
                           FXNET-2006-01 8,002,150,000                                                                No
Corporation                                                                       - Net 10 Days
UPS Worldwide                                                                    Contract Awarded
                          UPSNET-2006-01 505,321,152                                                                  No
Forwarding Inc.                                                                   – Net 14 Days
DaimlerChrysler
                                                                                 Contract Awarded
Motors Company           1DVPLE-05-B-3018 60,501,660                                                                  No
                                                                                  – Net 15 Days
LLC
                                                                                 Contract Awarded
Constellation                                                                     – Net 10 Days
                          1AUTIL-05-B-3004 50,885,753                                                                 No
New Energy Inc.                                                                  Modified to Net 7
                                                                                       Days
                                                                                 Contract Awarded
Amerada Hess                                                                      – Net 10 Days
                          1AUTIL-05-B-3008 21,439,941                                                                 No
Corp.                                                                            Modified to Net 7
                                                                                       Days

     7
       See Appendix D for an example of the Postal Service receiving consideration in exchange for agreeing to payment
     terms of less than 30 days.
     8
       After the life of the contract, the Postal Service changed the payment terms to net 5 days to expedite payment to the
     supplier for outstanding invoices. The Postal Service did not place any orders for services after changing the payment
     terms to net 5 days.




                                                               7
     Contract Payment Terms                                                                             CA-AR-10-004



                                                                                                         Consideration
Supplier Name            Contract Number              Contract Value           Payment Terms
                                                                                                           Received
Amerada Hess                                                                  Contract Awarded
                         1AUTIL-06-B-0003 21,529,816                                                             No
Corp.                                                                           – Net 7 Days
Amerada Hess                                                                  Contract Awarded
                         1AUTIL-06-B-0016 12,633,497                                                             No
Corp.                                                                           – Net 7 Days
                                                                              Contract Awarded
SUEZ Energy                                                                    – Net 10 Days
                         1AUTIL-05-B-3009 24,109,539                                                             No
Resources Inc.                                                                Modified to Net 7
                                                                                    Days
                         479984-90-B-0399                                     Contract Awarded
Marriott Hotel
                         & 2WNCED-08-B-                    239,130,233         – Net 15 Days                     No
Services Inc.
                              00019
Dolce                                                                         Contract Awarded
                        2DPSCM-04-P-1337                    55,000,000                                           No
International                                                                  – Net 15 Days
      Total                                           $9,256,594,685

     Federal Express Corporation and UPS Worldwide Forwarding Inc. Contracts

     Postal Service personnel said they agreed to payment terms of less than net 30 days
     because they felt payment terms were acceptable given the overall service and value of
     the contracts. However, because they did not calculate the cost associated with the
     shorter payment terms, it was not possible to determine if the overall service and value
     of the contracts compensated for the shorter payment terms. In addition, Postal Service
     personnel said they did not negotiate specific line items on the contracts, such as
     payment terms.

     DaimlerChrysler Motors Company LLC Contract

     There was no evidence in the contract file showing the Postal Service received
     something in exchange for shorter payment terms. The contract file showed that the
     Postal Service received a price reduction based on a volume discount.

     Constellation New Energy, Amerada Hess Corp., and SUEZ Energy Resources Inc.
     Contracts

     Postal Service personnel said they agreed to payment terms of less than net 30 days
     because, according to the contracting officer, EDI billing requires shorter payment terms
     and shorter payment terms were industry standards. However, EDI billing automates
     the bill payment processes but should not dictate the payment terms of a contract. One
     of the main benefits of EDI billing is that it facilitates a more precise on-time payment
     structure. This ensures that payments are made as close as possible to the payment

     9
      In October 2007, the Postal Service replaced the original contract number (479984-90-B-0399) with a new contract
     number (2WNCED-08-B-0001).




                                                             8
Contract Payment Terms                                                       CA-AR-10-004



due date, allowing for payment terms of net 30 days. In addition, the Postal Service did
not provide documentation to support that payment terms of net 7 days was the industry
standard.

Marriott Hotel Services Inc. and Dolce International Contracts

Postal Service personnel said they agreed to payment terms of less than net 30 days
because the shorter payment terms were industry standards. However, they did not
provide documentation to support that shorter payment terms were industry standards.




                                            9
   Contract Payment Terms                                                                                     CA-AR-10-004



                                      APPENDIX C: MONETARY IMPACT

                                                                                                             Opportunity
                                                             Contract               Opportunity
Supplier Name             Contract Number                                                                   Cost Beginning
                                                              Value                    Cost
                                                                                                              4/1/200810
Federal Express
                           FXNET-2006-01                 $8,002,150,000               $17,505,177 $11,285,684
Corporation
UPS Worldwide
                          UPSNET-2006-01                     505,321,152                    867,436                      589,227
Forwarding Inc.
DaimlerChrysler
Motors Company           1DVPLE-05-B-3018                      60,501,660                   124,496                             0
LLC
Constellation
                          1AUTIL-05-B-3004                     50,885,753                   143,566                        44,559
NewEnergy Inc
Amerada Hess
                          1AUTIL-05-B-3008                     21,439,941                     57,249                       31,370
Corp
Amerada Hess
                          1AUTIL-06-B-0003                     21,529,816                     59,686                       24,215
Corp.
Amerada Hess
                          1AUTIL-06-B-0016                     12,633,497                     35,417                       13,060
Corp.
SUEZ Energy
                          1AUTIL-05-B-3009                     24,109,539                     64,486                       32,619
Resources Inc.
Marriott Hotel          479984-90-B-0399 &
                                                             239,130,233                    338,311                      117,040
Services Inc.           2WNCED-08-B-0001
Dolce
                        2DPSCM-04-P-1337                       55,000,000                     92,350                       51,858
International
  Totals                                                 $8,992,701,591               $19,288,174                  $12,189,632




   10
      The opportunity cost represents unrecoverable unsupported questioned costs. OIG internal policy limits reporting
   of these costs to a period of 2 years prior to the audit. Therefore, we are only claiming $12.2 million of the total $19.3
   million as unrecoverable unsupported questioned costs. These are costs that are unnecessary, unreasonable, or an
   alleged violation of law or regulation. These costs are also not supported by adequate documentation.




                                                               10
Contract Payment Terms                                                     CA-AR-10-004



                  APPENDIX D: AMERICAN BANK NOTE CONTRACT

Modification 7 of the American Bank Note contract provides a positive example where
the Postal Service received consideration in exchange for agreeing to payment terms of
less than net 30 days. See paragraph 4 below.




                                          11
Contract Payment Terms                                       CA-AR-10-004



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                        12
Contract Payment Terms        CA-AR-10-004




                         13
